                      0    rt




          U.S. ATLANTIC COMMAND YEAR 2000 ISSUES



Report No. 98-194                          August 27, 1998




              Office of the Inspector General
                  Department of Defense
  Additional    Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions    for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                         OAIG-AUD (ATTN: APTS Audit Suggestions)
                         Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                         Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
  or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900,
  The identity of each writer and caller is fully protected.




Acronyms

ACOM                     U.S. Atlantic Command
Y2K                      Year 2000
                               INSPECTOR      GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                               ARLINGTON. VIRGINIA 22202




                                                                            August 27, 1998

MEMORANDUM          FOR COMMAND ER IN CHIEF, U.S. ATLANTIC                 COMMAND
                        DIRECTOR JOINT STAFF

SUBJECT:     Audit Report on U.S. Atlantic Command Year 2000 Issues
             (Report No. 98- 194)


       We are providing this report for your information and use. We considered
management comments on a draft of this report in preparing the final report. Management
comments were responsive; therefore, no additional comments are required.

         We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Ms. Mary Lu Ugone at (703) 604-9049 (DSN 664-9049) email
<rnlugone@dodig.osd.miil>,    Ms. Dianna J. Pearson at (703) 604-9063 (DSN 664-9063)
email <djpearson@dodig.osd.mil>,       or Mr. Scott S. Brittingham at (703) 604-9068
(DSN 664-9068) email <ssbrittingha@dodig.osdmil>.            See Appendix C for the report
distribution, which includes all unified commands so that self evaluations of Year 2000
readiness may be facilitated. The audit team members are listed inside the back cover.




                                           Robe; J. Lieberman
                                        Assistant Inspector General
                                                for Auditing
                          Office of the Inspector   General,   DOD

Report No. 98-194                                                           August 27,199s
   (Project No. SAS-OO06.03)

                    U.S. Atlantic Command Year 2000 Issues

                                  Executive Summary

Introduction.    This is one in a series of reports being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer, DOD,
to monitor DOD efforts to address the year 2000 computing challenge. For a listing of
audit projects addressing the issue, see the year 2000 webpage on IGnet at
<http://www.ignet.gov>.

Information technology systems have typically used two digits to represent the year, such
as “98” representing 1998, to conserve electronic storage and reduce operating costs.
With the two-digit format, however, the year 2000 is indistinguishable from 1900. As a
result of the ambiguity, computers and associated systems and application programs that
use dates to calculate, compare, and sort could generate incorrect results when working
with years after 1999.

Audit Objectives. The overall audit objective was to evaluate the status of the U.S.
Atlantic Command’s progress in resolving the year 2000 computing issues. Our audit
focused on the following year 2000 issues: leadership support and awareness, management
and resolution strategy, system assessments, prioritization, system interfaces, testing, risk
analysis and contingency planning, and support received from responsible Service
executive agents.

Audit Results. The U.S. Atlantic Command has taken action to increase year 2000
awareness throughout the command. However, the U.S. Atlantic Command needs to do
more. Unless the U.S. Atlantic Command, the Joint Staff, the Services, and Defense
agencies collaboratively make further progress, the U.S. Atlantic Command may not be
able to ensure that operational capability is not adversely affected by year 2000 problems.
See Part I for details of the audit results.

Summary of Recommendations.           We recommend that the Commander in Chief,
U.S. Atlantic Command, establish procedures and timeframes for monitoring and tracking
the status of mission-critical systems, join with other unified commands to obtain the
status of mission-critical systems, and report the status of mission-critical supporting
systems to the year 2000 program office; complete the reconciliation of the
managed-systems inventory and define reportable systems and how they should be
categorized; complete compliance certification checklists; establish offices of primary
responsibility for nonstandard commercial off-the-shelf products and reconcile compliance
discrepancies; develop system and operational contingency plans; and use selected
command and joint exercises to test year 2000 scenarios and contingency plans in an
operational environment.

Management Comments. The U.S. Atlantic Command concurred with and has taken
action on all of the recommendations except the recommendation to join with functional
counterparts at other unified commands to obtain status information of mission-critical
systems from the Services and Defense agencies. The U.S. Atlantic Command stated that
the executive agents would be inundated with duplicate requests, and suggested a more
efficient approach would be for the Joint StaRto obtain the status information and provide
it simultaneously to the unified commands. The Joint Staff stated that it endorsed the
recommendations of the report but agreed with the concerns expressed by the U.S.
Atlantic Command. See Part I for a summary of management comments and Part III for
the complete text of the comments.

Audit Response. Management comments were responsive. We commend ACOM for
expediting the necessary actions to address the recommendations of the report. We did
not intend that the unified commands duplicate efforts to obtain the status of
mission-critical systems from the Services and Defense agencies. Rather, the intent of the
recommendation was to encourage a unified command-wide involvement from a
functional perspective in DOD year 2000 remediation and continuity of operations efforts.
For example, an outcome of the year 2000 conference of the unified commands was the
scheduling of the Operations directorate year 2000 conference to be held in
September 1998 to collectively discuss continuity of operations issues. Other fimctional
directorates of the unified commands may have to also proactively and collectively work
together to obtain and share system information to support year 2000 remediation and
continuity of operations efforts. We agree, however, that the Joint Staff plays a central
coordinating role. We will continue working with the Joint Staff, unified commands, DOD
Year 2000 Program Office, and other DOD components to improve the information flow
on system year 2000 status to the warfighting community.




                                             ii
Table of Contents

Executive Summary

Part I - Audit Results

      Audit Background
      Audit Objectives
      Status of the U.S. Atlantic Command Year 2000 Program

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                 16
        Methodology                                           17
      Appendix B. Summary of Prior Coverage                   18
      Appendix C. Report Distribution                         21

Part III - Management Comments
      U.S. Atlantic Command Comments                          24
      Joint Stti Comments                                     28
Part I - Audit Results
Audit Background

    The year 2000 (Y2K) problem is the term most often used to describe the potential
    failure of information technology systems to process or perform date-related
    functions before, on, or after the turn of the century. The Y2K problem is rooted
    in the way that automated information systems record and compute dates. For the
    past several decades, systems have typically used two digits to represent the year,
    such as “98” representing 1998, to conserve on electronic data storage and to
    reduce operating costs. With the two-digit format, however, 2000 is
    indistinguishable from 1900. As a result of the ambiguity, computers and
    associated system and application programs that use dates to calculate, compare,
    or sort could generate incorrect results when working with years following 1999.
    Calculation of Y2K dates is further complicated because the Y2K is a leap year,
    the first century leap year since 1600. The computer systems and applications
    must recognize February 29,2000, as a valid date.

    Because of the potential failure of computers to run or function throughout the
    Government, the President issued an Executive Order, “Year 2000 Conversion,”
    February 4, 1998, making it policy that Federal agencies ensure that no critical
    Federal program experiences disruption because of the Y2K problem. The
    Executive Order also requires that the head of each agency ensure that efforts to
    address the Y2K problem receive the highest priority attention in the agency.

     DOD Y2K Management Strategy. In his role as the DOD Chief Information
     Officer, the Assistant Secretary of Defense (Command, Control, Communications,
     and Intelligence) issued the “DOD Year 2000 Management Plan” (DOD
     Management Plan) in April 1997. The DOD Management Plan provides the overall
     DOD strategy and guidance for inventorying, prioritizing, fixing, or retiring
     systems, and for monitoring progress. The DOD Management Plan states that the
     DOD Chief Information Officer has overall responsibility for overseeing the DOD
     solution to the Y2K problem. Also, the DOD Management Plan makes the DOD
     Components responsible for the five-phase Y2K management process. The DOD
     Management Plan includes a description of the five-phase Y2K management
     process. The DOD Management Plan, “For Signature Draft Version 2.0,”
     June 1998, accelerates the target completion dates for the renovation, validation,
     and implementation phases. The new target completion date for implementation of
     mission-critical systems is December 3 1, 1998.

     In a memorandum dated January 20, 1998, for the heads of executive departments
     and agencies, the Office of Management and Budget established a new target date
     of March 1999 for implementing corrective actions to all systems. The new target
     completion dates are September 1998 for the Renovation phase and January 1999
     for the Validation phase.

     The Joint Chiefs of Staff. The Chairman of the Joint Chiefs of Staff is the
     principal military advisor to the President, the Secretary of Defense, and the
     National Security Council. The Joint Chiefs of Staff have no executive authority
     to command the combatant forces. The Secretaries of the Military Departments
     assign all forces under their jurisdiction to the unified commands to perform
     missions assigned to those commands.




                                          2
        The Joint Staff. The Joint StafFDirector, Command, Control,
Communications, and Computer Systems (J6), has been designated by the
Chairman of the Joint Chiefs of StaRto oversee the unified commands’ and Joint
Staffs implementation of the DOD Management Plan.

The Joint Staff assists the Chairman of the Joint Chiefs of Staff with unified
strategic direction of the combatant forces; unified operation of the combatant
commands; and integration into an efficient team of land, naval, and air forces.

         Year 2000 Action Plan. The Joint Chiefs of Staff Year 2000 Action Plan,
March 1998, provides the unified commands and Joint Staff directorates the
corporate strategy and management approach for addressing the Y2K problem.
The action plan uses the accelerated target completion dates for the renovation,
validation, and implementation phases in the draft DOD Management Plan. The
action plan provides that the unified commands should target December 3 1, 1998,
for completion of all Y2K efforts.

U.S. Atlantic Command. The U.S. Atlantic Command (ACOM) is one of nine
unified commands in the Department of Defense. The ACOM was established on
October 1, 1993. The ACOM is responsible for conducting joint operations,.
humanitarian assistance, counterdrug operations, and military support for civilian
authorities within its area of responsibility. The ACOM area of responsibility
encompasses 45 million square miles of Atlantic Ocean from the North Pole to the
South Pole and fi-om the east coast of the United States to Gibraltar, including the
Norwegian, Greenland, and Barents seas. It also includes the Pacific Ocean west
of Central and South America and the continental United States. The ACOM
reports to the Secretary of Defense. The overall mission of ACOM is to support
and advance U.S. interests and policies throughout its assigned area of
responsibility and to accomplish the following:

      l  provide combat-ready       land, maritime, and air forces to U.S. warfighting
commanders in chiefl

       l   conduct operations unilaterally or in concert with coalition partners; and

       l   train forces as joint units.

The ACOM is supported by component commands from each Service that provide
forces as required to conduct operations. The component commands are the U.S.
Army Forces Command; the U.S. Navy Atlantic Fleet; the U.S. Air Force Air
Combat Command; and the U.S. Marine Forces, Atlantic.




                                          3
Audit Objectives
     The overall audit objective was to evaluate the status of the progress of ACOM in
     resolving its Y2K computing issues. Our audit focused on the following Y2K
     issues: leadership support and awareness, management and resolution strategy,
     system assessments, prioritization, system interfaces, testing, risk analysis and
     contingency planning, and support received from responsible Service executive
     agents. We did not review the management control program related to the overall
     audit objective because DOD recognizes the Y2K issue as a material management
     control weakness area in the FY 1997 Annual Statement of Assurance. See
     Appendix A for a discussion of the audit scope and methodology and Appendix B
     for a summary of prior audit coverage.




                                          4
           Status of the U.S. Atlantic Command
           Year 2000 Program
           The ACOM has taken action to increase Y2K awareness throughout                 the
           command. The ACOM needs to do more in the following areas:

                   l gaining visibility over its mission-critical   systems owned by the
           Services and Defense agencies;

                  l reconciling its managed-systems       inventory to reflect the actual
           number and status of ACOM systems;

                  l  preparing compliance checklists and certifjling ACOM-managed
           systems as compliant;

                    l  establishing directorate responsibility for all of its commercial
           off-the-shelf products;

                    l developing system and operational contingency        plans to establish
           alternate procedures to accomplish the mission; and

                    l using selected command and joint exercises to test Y2K
          scenarios and contingency plans in an operational environment when
          possible.

          Unless ACOM, the Joint Staff, the Services, and Defense agencies
          collaboratively make further progress, ACOM and the other unified
          commands will be unable to ensure that operational capability is not
          adversely affected by Y2K problems.


Y2K Program Management
    The ACOM has taken action to increase Y2K awareness throughout             the
    command.

    Y2K Program Otlice. The ACOM Director of Command, Control,
    Communications, and Computer Systems (J-6) is the Y2K program office and has
    responsibility for the ACOM Y2K Program. The ACOM Director of Command,
    Control, Communications, and Computer Systems reports the status of ACOM
    directly to the Commander in Chief and Deputy Commander in Chief On
    April 7, 1998, the ACOM Director of Command, Control, Communications, and
    Computer Systems briefed the Deputy Commander in Chief and all of the ACOM
    directors on the Y2K responsibilities of each ACOM directorate.

    The Command, Control, Communications,         and Computer      Systems directorate
    Y2K program office:

                   l   created and maintains an ACOM Y2K web page;

                   l   reconciles the ACOM systems inventory;


                                            5
Status of the U.S. Atlantic Command Year 2000 Program


                      l   prepares the quarterly reports submitted to the Joint Staff;

                      l   developed the ACOM Y2K Management Plan; and

                      l   chairs regular meetings with directorate Y2K representatives.

      Additionally, the Command, Control, Communications, and Computer Systems
      directorate Y2K program office has taken the responsibility for identifying the
      status of systems that the Services and Defense agencies owned and that all of
      ACOM used.

      ACOM Directorates.     The Command, Control, Communications, and Computer
      Systems directorate Y2K program office is responsible for all ACOM Local
      Information System network-centered hardware and software. However, the
      ACOM directorates are responsible for all non-Local Information System network
      hardware and software and also nonstandard software that resides on the ACOM
      local network. Additionally, the directorates are responsible for the following:

             l  coordinating with the Joint Staff fUnctiona counterparts to obtain
      mission-critical systems status from the Services and Defense agencies;

              l  reviewing the ACOM Y2K web page for completeness and reporting
      updates to the Command, Control, Communications, and Computer Systems
      directorate; and

              l   fimding and replacing nonstandard commercial off-the-shelf products.

      The directorates are responsible for preparing contingency plans for
      mission-critical systems. The ACOM uses 148 systems that the Services and
      Defense agencies own. Each system has an office of primary responsibility, the
      responsible directorate that has the mission that the system supports. The office of
      primary responsibility prepares contingency plans for mission-critical systems and,
      as stated, coordinates to determine the status of those systems.


ACOM Supporting Systems
      The ACOM did not have visibility over mission-critical supporting systems, which
      are owned by the Services and Defense agencies, because at the time of the audit
      ACOM had not established or been provided a method for monitoring and tracking
      its supporting systems. The ACOM is, necessarily, relying on the Services and
      Defense agencies to make the Y2K corrections in a timely manner. The ACOM
      directorates are required to develop contingency plans for those systems that are
      not compliant by December 3 1,1998.

       The ACOM considered 53 of its 148 systems to be critical to its mission. Of the
       53 systems, ACOM did not know the status of Y2K compliance for 30 systems,
       15 systems were not Y2K compliant, and 8 systems were Y2K compliant.

       Until January 1998, the ACOM Y2K program office monitored the status of
       supporting systems using the Defense Information Support Tools database. The
       ACOM Y2K program office posted the information on the ACOM Y2K web page,


                                              6
                         Status of the U.S. Atlantic Command Year 2000 Program


   making the information available to the offices of primary responsibility. The
   Defense Information Support Tools database is no longer available for obtaining
   information concerning the status of systems, and ACOM has not established or
   been provided alternate procedures for determining the status of those systems.
   As a result, ACOM is unable to determine the potential impact that supporting
   systems may have on its mission and any Y2K system schedule delays.

   As stated, ACOM made each directorate responsible for coordinating with its Joint
   Staff functional counterpart to monitor the status of its systems. Also, the
   directorates should join with other unified command functional counterparts to
   obtain system Y2K status information from the Services and Defense agencies.
   The directorates should report the progress of the executive agents to the ACOM
   Y2K office, noting especially whether the systems will be compliant and fklly
   implemented by December 3 1, 1998. The ACOM is in the process of
   implementing status-tracking requirements.

   The Office of the Assistant Secretary of Defense (Command, Control,
   Communications, and Intelligence) has developed a DOD Y2K database. In a
   recent undated memo, the DOD Y2K Oversight and Contingency Planning Office
   decided to post the database to the Office of the Assistant Secretary of Defense
   (Command, Control, Communications, and Intelligence) web page.

    To provide further assistance to the warfighting community on determining the
    Y2K status of supporting systems, the Joint Stti has taken initiatives to
    compensate for the continuing problems in making that information available
    through other channels. To date, the Joint Staff has posted an extract of the DOD
    Y2K database on the SIPRNET.


ACOM-Managed Systems
    The ACOM overall system inventory list did not accurately reflect the status of
    ACOM systems. However, as a result of this audit, the ACOM directorates are in
    the process of reconciling the directorate inventory lists to the ACOM overall
    inventory list. Additionally, ACOM is establishing ACOM directorate reporting
    requirements to the ACOM Y2K program office. As a result of the established
    requirements, ACOM consolidated reporting should provide an accurate
    assessment of the status of ACOM-managed systems.

    Quarterly Report. In the April 1998 quarterly report, ACOM reported to the
    Joint Stti that it manages 32 systems, none critical to the mission of ACOM. Of
    the 32 systems, ACOM reported 19 systems compliant, 8 systems being replaced,
    3 systems in renovation, and 2 systems to be eliminated.

    ACOM Reportable Systems.       Based on our review of the ACOM
    documentation, ACOM should have reported 57 managed systems; 8 of the
    57 systems were considered critical to the mission of ACOM. Further, ACOM
    should have reported only nine systems as compliant.
Status of the U.S. Atlantic Command Year 2000 Program


               Number of Managed Systems. Of the 32 managed systems, ACOM
      should have reported only 23 systems. One directorate was shown as having
       10 managed systems. However, eight of those systems were subsystems, were not
      systems, or did not belong to the directorate. Another system was not listed by the
      attributed directorate. In addition to the 23 reportable systems, another
      34 systems were not included in the ACOM systems inventory list, bringing the
      total reportable systems to 57. The following table provides a categorization of
      the number of systems that ACOM reported compared with the actual reportable
      systems.
                               ACOM-Managed          Systems

                                                     Reported       Actual

      Compliant                                         19              9
      To be replaced                                      8           24
      To be renovated                                     3             2
      To be eliminated                                    2           11
      To be validated                                     0           10
      Requirement to be revalidated                     0             1
       Total ACOM-managed         systems               32            57


      The ACOM is taking action to clearly establish guidelines on what is considered to
      be a reportable system and how reportable systems should be categorized and then
      to reconcile the ACOM systems inventory list. The ACOM stated that an updated
      inventory would be provided to the Joint Staff in the July 1998 quarterly report.
      The ACOM needs to complete the reconciliation of its inventory lists and to define
      reportable systems.

             Mission-Critical Systems. The ACOM should have reported that it
      manages eight mission-critical systems. Two of the mission-critical systems are
      not expected to be compliant until after December 3 1, 1998, the deadline for
      implementing all mission-critical systems.


Certification and Compliant Checklists

      The ACOM did not complete compliance certification checklists for eight of the
      nine ACOM-managed systems stated to be Y2K compliant. As stated earlier in
      this report, ACOM had reported that it had 19 managed systems that are Y2K
      compliant. However, the following 10 systems should not have been included:

              l   8 systems that were not reportable systems,

              l   1 system that is not scheduled to be renovated until October 1998, and

             l    1 system that was not compliant.
                         Status of the U.S. Atlantic Command Year 2000 Program


    The DOD Management Plan states that systems developers and maintainers, along
    with the system’s functional proponent, will certify and document each system’s
    Y2K compliance. The DOD Y2K Management Plan and ACOM Draft Y2K
    Management Plan provide a sample Y2K compliance checklist.

    For seven of the nine systems, ACOM had some supporting documentation to
    show that Y2K tests had been done and no problems identified. For two of the
    nine systems, Y2K compliance is based on verbal information with no
    documentation to support it. Inspector General, DOD, Report No. 98-147,
    “Year 2000 Certification of Mission-Critical DOD Information Technology
    Systems,” June 5, 1998, estimated that DOD Components certified only 25 percent
    of the systems reported as compliant. As a result, systems may unexpectedly fail
    because they were classified as Y2K compliant without adequate verification and
    validation.

    Although existing documentation and verbal information are some basis on which
    to support Y2K compliance, ACOM directorates need to complete compliance
    certification checklists to fully support those systems as Y2K compliant. Further,
    compliance certification checklists will provide uniformity and continuity for
    ACOM-managed systems and a record of testing performed for successive system
    maintainers.


Commercial Off-the-Shelf Products
    The ACOM did not establish the office of primary responsibility for
    104 commercial off-the-shelf products as of April 14, 1998. Commercial
    off-the-shelf products refer to software that a contractor has produced and that is
    available for general purchase. In addition, ACOM has not determined Y2K
    compliance for 128 of the 361 commercial off-the-shelf products supported by the
    directorates and sub-commands.      Of the 128 applications for which compliance is
    unknown 7 1 applications are without an office of primary responsibility.

    The ACOM commercial off-the-shelf inventory list appears to have discrepancies
    as to compliance of Y2K applications. For several applications, directorates are
    reporting different results about the Y2K compliance of the same application. The
    discrepancies appear to be the result of lack of coordination between the
    directorates and sub-commands and the Y2K program office. The ACOM is
    taking action to determine the compliance of its commercial off-the-shelf inventory
    list and to reconcile the discrepancies. The ACOM needs to complete those
    actions.


Contingency Plans
    As a result of this audit, ACOM has documented in the ACOM Y2K Management
    Plan its strategy for the development, implementation, and timeframes for
    contingency planning. The management plan requires that ACOM develop
    contingency plans by December 3 1, 1998, for mission-critical systems not
    compliant by that date. Although ACOM had a written strategy for contingency
    planning, ACOM had not developed contingency plans for mission-critical
    systems. On May 29, 1998, the ACOM Y2K program office notified the


                                         9
Status of the U.S. Atlantic Command Year 2000 Program


      directorate Y2K focal points that the offices of primary responsibility are required
      to contact the executive agents and request a copy of the compliance certification
      checklist for the mission-critical systems and obtain installation delivery dates for
      systems that are not compliant yet. Additionally, the offices of primary
      responsibility are encouraged to request contingency plans from the executive
      agents for those systems that they know will not be compliant by
      December 3 1, 1998.

      The Joint Chiefs of Staff Year 2000 Action Plan requires that the unified
      commands conduct sufficient planning and establish alternate procedures to
      successfully complete their mission while system program managers and technical
      staff make necessary Y2K corrections. Alternate procedures must be applicable to
      day-to-day peacetime operations as well as warfighting and peacekeeping
      operations. The ACOM must monitor both the status of its mission-critical
      systems and the completion schedules when developing contingency plans. The
      ACOM directorates need to begin coordinating with the Joint Staff, the Services,
      and the unified commands to determine realistic completion schedules for the
      common mission-critical systems and develop both system and operational
      contingency plans to establish alternate procedures to accomplish their missions.


Command and Joint Exercises
      Because of time constraints posed by Y2K issues, using selected command and
      joint exercises to test Y2K scenarios may assist ACOM in making further progress
      to identify and resolve Y2K problems. Inspector General, DOD,
      Report No. 98-173, “U.S. Central Command Year 2000 Issues,” July 2, 1998, and
      Inspector General, DOD, Report 98-129, “U.S. Special Operations Command
      Year 2000 Issues,” May 8, 1998, recommended that the Joint St&integrate
      year 2000 scenarios into operational requirements in joint exercises in FY 1998 for
      the purposes of determining the extent of potential Y2K impact on the continuity
       of the warfighter. The U.S. Central Command and the U.S. Special Operations
       Command concurred with the recommendation.

      The House bill to authorize appropriations for FY 1999 for the Department of
      Defense, H. R. 36 16, proposes that the Secretary of Defense submit to Congress a
      report containing a plan to include simulated Y2K scenarios in military exercises
      conducted from January 1 through September 30, 1999. The plan is to include
      military exercises conducted under the Chairman of the Joint Chiefs of Staff
      Exercise Program. Additionally, the plan is to cover systems excluded from the
      exercise and an explanation of how the military exercise will use an excluded
      system’s Y2K contingency plan. The Senate version of H.R. 36 16 proposes that
      the Secretary of Defense and the Director of Central Intelligence jointly submit to
      Congress a report on the plans of the DOD and intelligence community for
      ensuring the continuity of performance of essential operations that are at risk of
      failure because of computer systems and other information and support systems
      that are not Y2K compliant. The report shall be submitted not later than
      March 3 1, 1999. The House and Senate versions of H.R. 3616 are under
      consideration by the conferees to the DOD authorization conference, who are
      considering the FY 1999 DOD bill.




                                             10
                          Status of the U.S. Atlantic Command Year 2000 Program


    The Secretary of Defense has tasked the Chairman of the Joint Chiefs of Staffto
    develop a Joint Y2K operational evaluation program and to provide the plans by
    October 1, 1998. In June 1998, the Vice Chairman, Joint Chiefs of Staff, sent a
    message to the unified commands, Services, and Defense agencies. The message
    provided a synopsis of the operational evaluation plan, solicited unified command
    involvement in the Y2K process, and requested feedback on Y2K operational
    evaluation opportunities.    The Y2K operational evaluation plan will encourage use
    of joint exercises, demonstrations, mission readiness assessments, tests, or other
    opportunities for evaluation of readiness. The goal of Y2K operational evaluations
    is to assure the war-fighters that their key mission-critical systems will not fail
    because of Y2K perturbations, as isolated systems, or as part of the interconnected
    systems environment in which war-fighting as peacekeeping missions are
    conducted.

    Performing command and joint exercises to test Y2K interoperability of system
    interdependencies and interfaces may not be possible in some instances if the
    Services and Defense agencies have not made and implemented the necessary Y2K
    corrections to the required systems. However, in an effort to mitigate the risk
    associated with the Y2K issue and the effect that Y2K could have on the core
    mission of ACOM, testing contingency plans in an operational environment will be
    required. Testing contingency plans is vital to help ACOM assess its capability to
    continue operations if systems fail because of Y2K problems.


Conclusion
    The ACOM, like the other unified commands, must take an aggressive approach to
    dealing with Y2K for supporting systems to ensure that it is well-positioned to deal
    with unexpected problems and delays. The ACOM must continually monitor and
    assess the progress of supporting systems so that it may forecast potential
    Y2K disruptions to the ACOM mission and prepare operational contingency plans
    accordingly. We recognize the inherent problems confronting ACOM and other
    system users, who must rely on system owners to carry out the necessary
    remediation measures. The Military Departments and Defense agencies must make
    accurate information on Y2K risk and remediation status available to the Joint
    Staff and unified commands. Access to the information located on the DOD Y2K
    database would greatly facilitate the ability of ACOM and other unified commands
    to monitor the progress of their supporting systems, prepare contingency plans for
    their mission areas, and plan operational evaluations.




                                         11
Status of the U.S. Atlantic Command Year 2000 Program




Recommendations for Corrective Action
      We recommend that the Commander          in Chief, U.S. Atlantic Command:

              1. Establish procedures and timeframes for the offices of primary
      responsibility to:

                     (a) Monitor and track the status of mission-critical   systems
      that the Services and Defense agencies own.

                   (b) Join with functional counterparts at other unified
      commands to obtain the status of mission-critical systems from the Services
      and Defense agencies.

                    (c) Report the status of those systems to the year 2000
      program office.

              2. Complete reconciliation of the managed-systems inventory to
      reflect the actual number and status of the U.S. Atlantic Command systems
      and clearly define reportable systems and how reportable systems should be
      categorized.

             3. Complete compliance certification checklists to fully support
      systems as year 2000 compliant.

              4. Establish offices of primary responsibility for nonstandard
      commercial off-the-shelf products and complete reconciliation of compliance
      discrepancies.

               5. Develop system and operational contingency plans that will
      establish alternate procedures to successfully accomplish the mission if year
      2000 disruptions occur.

              6. Use selected command and joint exercises to test year 2000
      scenarios and contingency plans in an operational environment when
      possible.

      Management    Comments. The ACOM concurred with all of the
      recommendations except to join functional counterparts at the other unified
      commands to obtain the status of mission-critical systems from the Services and
      Defense agencies.

      The ACOM stated that it has developed a database to monitor and track the status
      of mission-critical systems that the Services and Defense agencies own. The




                                          12
                        Status of the U.S. Atlantic Command Year 2000 Program


offices of primary responsibility are to report all information on supporting systems
and commercial off-the-shelf software to the ACOM Y2K office on a monthly
basis. Additionally, ACOM stated that it:

        l     completed the managed-system    inventory reconciliation   May 29, 1998;

          l  established September   1, 1998, as the completion   date for all
certification checklists;

         l   established offices of primary responsibility for all commercial
off-the-shelf products as of June 30, 1998; and

        l     established a deadline of December 3 1, 1998, for the completion   of
contingency    plans for supporting systems.

The ACOM is providing input to the Joint Staff for the Chairman of the Joint
Chiefs of StafT operation evaluation plan.

The ACOM did not agree to join the functional counterparts of the other unified
commands in obtaining status information, stating that the executive agents would
be inundated with duplicate requests. ACOM stated that a more efficient approach
would be for the Joint StaRto obtain the status information and provide it
simultaneously to the unified commands.

The Joint Staff stated that it endorses the recommendations to improve the Y2K
posture of ACOM; however, the Joint Staff agrees with the concerns that ACOM
expressed.

Audit Response. We consider the comments of ACOM to be responsive.               We
commend ACOM for expediting the necessary actions to address the
recommendations of the report.

We did not intend that the unified commands duplicate efforts to obtain the status
of mission-critical systems from the Services and Defense agencies. Rather, the
intent of the recommendation was to encourage a unified command-wide
involvement from a functional perspective in DOD Y2K remediation and continuity
of operations efforts. For example, an outcome of the Y2K conference of the
unified commands was the scheduling of the Operations (J-3) directorate Y2K
conference to be held in September 1998 to collectively discuss continuity of
operations issues. Other functional directorates of the unified commands may have
to also proactively and collectively work together to obtain and share system
information to support Y2K remediation and continuity of operations efforts. We
agree, however, that a central Joint StafT role in collecting and disseminating Y2K
status information is vital.




                                       13
Part II - Additional Information
Appendix A. Audit Process

    This is one in a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer, DOD,
    to monitor DOD efforts to address the Y2K computing challenge. For a listing of
    audit projects addressing the issue, see the Y2K webpage on IGnet at
    <http:llwww.ignet.gov>.


Scope
    We reviewed and evaluated the status of the progress of ACOM in resolving the
    Y2K computing issue. We evaluated the Y2K efforts of ACOM and compared
    them with those efforts described in the DOD Management Plan issued by the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) in April 1997. We obtained documentation including the ACOM
    Y2K Management Plan, the ACOM Y2K responses to the Office of the Inspector
    General, DOD, Y2K questionnaire, and systems inventory database information as
    of April 1998. We used the information to assess efforts related to the multiple
    phases of managing the Y2K problem.

    DOD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Department of Defense has established 6 DOD-wide corporate-level performance
    objectives and 14 goals for meeting the objectives. This report pertains to
    achievement of the following objectives and goals.

         l       Objective: Prepare now for an uncertain future. Goal: Pursue a focused
                 modernization effort that maintains U. S. qualitative superiority in key war
                 fighting capabilities. (DOD-~)

    DOD Functional     Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

         l       Information Technology Management Functional Area.
                 Objective: Become a mission partner. Goal: Serve mission information
                 users as customers. (ITM-1.2)
             l   Information Technology Management Functional Area.
                 Objective: Provide services that satisfy customer information needs.
                 Goal: Modernize and integrate Defense information infrastructure.
                 (ITM-2.2)
             0   Information Technology Management Functional Area.
                 Objective: Provide services that satisfy customer information needs.
                 Goal: Upgrade technology base. (ITM-2.3)



                                               16
                                                             Appendix A. Audit Process


       General Accounting Office High-Risk Area. In its identification of risk areas,
   -   the General Accounting Office has specifically designated risk in resolution of the
       Y2K problem as high. This report provides coverage of that problem and of the
       overall Information Management and Technology high-risk area.


Methodology
       Audit Type, Dates, and Standards. We performed this economy and efficiency
       audit from April through June 1998 in accordance with auditing standards issued
       by the Comptroller General of the United States, as implemented by the Inspector
       General, DOD. We did not use computer-processed      data to perfbrm this audit.

       Contacts During the Audit. We visited or contacted individuals and
       organizations within DOD. Further details are available upon request.

       Management Control Program. We did not review the management control
       program related to the overall audit objective because DOD recognized the
       Y2K issue as a material management control weakness area in the FY 1997 Annual
       Statement of Assurance.




                                             17
Appendix B. Summary of Prior Coverage
   The General Accounting Office and the Inspector General, DOD, have conducted
   multiple reviews related to Y2K issues. General Accounting Office reports can be
   accessed over the Internet at http://www.gao.gov.     Inspector General, DOD,
   reports can be accessed over the Internet at http://www.dodig.osd.mil.    The
   following summarizes the Y2K coverage of the unified commands.

   Inspector General, DOD, Report No. 98-188, “U.S. Space Command
   Year 2000 Issues,” August l&1998. The report states that the U.S. Space
   Command and component commands have taken actions to address the Y2K
   problem, but not completed all the actions necessary to minimize the adverse
   impact of Y2K date processing on its mission and its mission-critical systems.

   The report recommended that the U.S. Space Command identify Y2K as a
   readiness issue and include functional directorates in future warfighter Y2K
   conferences hosted by the Joint StaE The report also recommended that the U.S.
   Space Command develop the following:

          l   written Y2K management       plan;

          l   complete list of mission-critical    systems;

         l contingency      plans for mission-critical   systems that U.S. Space
   Command manages;

          l   operational contingency plans for mission areas; and

          l   comprehensive    and complete test plans.

   Additionally, the report recommended that the U.S. Space Command complete the
   identification of interfaces and prepare written interface agreements for
   mission-critical systems that U.S. Space Command manages; coordinate Y2K
   solutions and contingency plans with its component commands; and use selected
   command and joint exercises to test Y2K scenarios and contingency plans in an
   operational environment when possible. The report recommended the Joint Staff
   include all functional directorates and component commands in the warflghter
   Y2K conference. The U.S. Space Command and the Joint Staff concurred with
   the recommendations of the report. The U.S. Space Command stated that it has
   initiated action to address the recommendations of the report. The Joint Staff
   stated that all functional directorates would be invited to the Joint StafPs
   August 1998 and subsequent Y2K conferences.

   Inspector General, DOD, Report No. 98-173, “U.S. Central Command
   Year 2000 Issues,” July 2, 1998. The report states that the U.S. Central
   Command has taken several positive actions to address its Y2K problem.
   However, the U. S. Central Command and the Joint Staff have not completed all of
   the actions necessary to minimize the adverse impact of Y2K date processing in
   mission and mission-support systems.




                                          18
                                       Appendix B. Summary of Prior Coverage


The report recommended that the U.S. Central Command monitor and implement
DOD Year 2000 Management Plan revisions; complete the identification of
mission-critical supporting systems and system interfaces; research Y2K
compliance of vendor software and test mission-critical vendor software; prepare
written interface agreements; develop contingency plans for U. S. Central
Command mission-critical managed and supporting systems and develop
operational contingency plans as needed; document tests plans and certify the level
of Y2K compliance for managed systems; coordinate Y2K solutions with the
Component Commands; and use selected command and joint exercises to test Y2K
scenarios in an operational environment. The U.S. Central Command concurred
with the recommendations of the report.

The report also recommended that the Joint Staff develop a composite
DOD mission-critical database and assist the unified commands in obtaining Y2K
information on mission-critical supporting systems that Services or other
organizations manage; implement procedures to monitor and track the status of
mission-critical supporting systems; assist the unified commands in testing systems
and applications common to the unified commands; disseminate Y2K information
on commercial off-the-shelf products; and use selected joint exercises to test Y2K
scenarios in an operational environment. The Joint Staff concurred with the
recommendations of the report.

In an effort to provide assistance to the unified commands, the Joint Stti
extracted data from the DOD Y2K Project Office developed systems database and
posted it to the Joint Staff Y2K web site. The database was not available on-line
because of classification issues. The Joint StaRalso stated that it has been
facilitating the Joint Interoperability Test Command for Y2K testing of systems
owned by the unified commands. Finally, the Joint Staff stated that it is developing
a Y2K operational evaluation plan for use by the unified commands and the
Services during exercises and other opportunities from now until the Year 2000.
In June 1998, the Vice Chairman, Joint Chiefs of Staff, sent a message to the
unified commands, Services, and Defense agencies. The message provided a
synopsis of the operational evaluation plan solicited unified command involvement
in the Y2K process, and requested feedback on Y2K operational evaluation
opportunities.

Inspector General, DOD, Report No. 98-129, “U.S. Special Operations
Command Year 2000 Issues,” May 8,1998. The report states that the progress
that the U.S. Special Operations Command made in resolving its Y2K problem is
not complete. To ensure that its mission-critical systems will successfully operate
at the Y2K and beyond, the U.S. Special Operations Command, including its
component commands and functional directorates, must address several critical
issues. Unless the U.S. Special Operations Command makes fiuther progress, it
faces a high risk that year-2000-related disruptions will impair its mission
capabilities.

The report recommended that the U.S. Special Operations Command implement
revisions to the DOD Year 2000 Management Plan; continue to identify U.S.
Special Operations Command managed mission-cntrcal systems and the associated
interfaces and for those systems; prepare written interface agreements and
contingency plans; continue to identify mission-critical supporting systems that
Services or other organizations manage; refine cost estimates for each individual
system to determine amounts needed for fund allocation; determine systems as



                                     19
Y2K compliant only after testing the systems and completing compliance
checklists; and use selected command and joint exercises to test Y2K scenarios in
an operational environment. Additionally, the report recommended that the Joint
Staff assist the unified commands in obtarmng Y2K information on mission-critical
supporting systems that Services or other organizations manage; assist the unified
commands in testing systems and applications that are common to the unified
commands; and use selected joint exercises to test Y2K scenarios in an operational
environment. The U.S. Special Operations Command and the Joint Staff
concurred with the recommendations of the report, stating progress made and
future intentions for each recommendation.




                                     20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/E3udget)
Assistant Secretary of Defense (Command, Control, Communications,             and Intelligence)
   Year 2000 Oversight and Contingency Planning Office
Assistant Secretary of Defense (Public Affairs)

Joint Staff
Director, Joint StaR

Department of the Army
Assistant Secretary of the Army (Financial Management           and Comptroller)
Auditor General, Department of the Army
Chief Information Officer, Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management           and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management          and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force

Unified Commands
Commander    in   Chief,   U.S.    European Command
Commander    in   Chief,   U.S.    Pacific Command
Commander    in   Chief,   U.S.    Atlantic Command
Commander    in   Chief,   U.S.    Southern Command
Commander    in   Chief,   U.S.    Central Command
Commander    in   Chief,   U.S.    Space Command
Commander    in   Chief,   U.S.    Special Operations Command
Commander    in   Chief,   U. S.   Transportation Command
Commander    in   Chief,   U.S.    Strategic Command

                                                  21
Appendix C. Report Distribution


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
   United Kingdom Liaison Officer, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory AEairs
Federal Chief Information Officers Council
Technical Information Center, National Security and International AfEtirs Division,
   General Accounting Office
Director, Defense Information and Financial Management Systems, Accounting and
   Information Management Division, General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

   Senate Special Committee on the Year 2000 Technology Problem
   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Afkirs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Governmental Reform and Oversight
   House Subcomrqittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                            22
Part III - Management   Comments
U.S. Atlantic Command Comments




                                                                      7ooa
                                                                      !kr JOOIc4/8u9736
                                                                      16 July 1998


     MlMOKA?QUM FOR: hsjwor             General, Departmentof Dcfknsc

     Subject: Audit Report on U.S. Mantic Command Year 2ooO Issues
              (Project No. 8hS-WM.03)

    I. The subject draft report has been mhcd   and comments are forwarded as requested as
    Attachment.




                                                Colonel, U.S. nit Force




                                                  24
                                                         U.S. Atlantic Command              Comments




                                                                                                       Final Report
                                                                                                        Reference


                                  DEPARTMETMEO~~FENSE
                                       Us.ATuNTIe t#yA#)
                                    lsa8trtactAw(uEtumW                       Y-mm
                                        mamz.lcuzmG2u8
                                                                              J631B
                                                                              sa 8UI


    MEMORN+lDUMFOR:hpcctarOeocml,I)eprtrmmtofDcfenw

    subject: Audit Rq8aaoou.s.    &%lhtticCotmaandYur2oooIaartr




    2. Specsccotnfnaus:

            L rage5,tipmgraph         Dcletc%zOMdidnot8dequeiy8ccomp~the
    following:” Replace with %ctiotls ae 8tin on-going in tbc fbllo* uers:”
                                                                                                       Revised

           Rationale: Accumy.

           b. Ptgt 7, ACOM Sqqmting Syaemp: Append “(O&a Agency Dew&pal Systctm)”
    tothcpangmphhcuiing.
                                                                                                       Page 6

            Ratiotmie: Consistency. System pmvided to ACOM by other egmcicr luve hem
    rqottcdmddocmcn       tedasothcrAgutcyDcv&pedticcsuPpohgsystetus.        AusofhmRilI
    use, including ACDMdtvtiopa3 is contida.al nrpparting.

                                                                                                       Page 6




           d Pa&t 7, third pinagtap~ sixth litm Recoanneod ckmge -ACOM” to    -Joist St&”




L




                                                  25
               U.S. Atlantic Command Comments




Final Report
 Reference




     Page 8                   e. Ptgt 9,firttptctg+LRsMIlntnd    Cb=@t"tigWlBiSti~titiCtlsystcmstOutwO."
                       Delete auire second smtuwe.




      Page 8




                                                       mkac (1) ACOlbfY2KofIkhttdtdopedrdtmbeteia
                                                         btIDgtoug#L(2)-~dQoTsmldcoTs
                       inf-toJ63NLTtheslhofaeh~                    -irpovidcdtothJoillts~bythc
                       15thofuchmonth.




                                                                  26
                                             U.S. Atlantic Command Comments




                                    B+diuGead,U.      S.Amay
                                    Dhcturfor-




(4 DRf\ DOD IO Audit ReportProjoeNo. lXSOOM.03of June 18.1998




                                        27
                                                                                                     -


    Joint Staff Comments




                Reply ZIP Code:                                                 DJSM 803-98
                20318-0300                                                      24July1998


                MEMORANDUMFGRlliE INSPECTORGENERAL.DEF’ARlMEfw OF DEFENSE

                Subject: Audit Report on US Athntlc Command Year 2000 Issues (Project No. SAS
                         0006.03)


                1. Ihe Joint Staff endorsesyour su&$stions to Improve the year 2000 posture of the
                us Atlantic co mmsnd (USACOM).’ We are committedto ens-         the warfi&ttng
                m~sstonsof the combatantcommandsare conductedwithout year 2OOO-related
                mlssion degradation.

                2. lhe draft audit report included findings for USACOM. ?he Joint Staff concurs in
                concerns expressed In USACOhfs managementcomments.which are shown at the
                ElXJO!SLUC.


                3. Ihe Joint Staff point of contact for year 2000 actlons is Lteutarant Colonel
                Ludnda Hackman.J-6. (703~697-1207.DSN 227-1207.hctnda_hackman@js.
                pcntagon.mtl.




                                                             DENNIS C. BLAIR
                                                             Vice Admlml, U.S. Navy
                                                             Director,Joint Staff




                FtCfmnCe:
*
                1 DGD/IG memorandum.18 June 1996. “Audit Report on U.S. Atlantic
                  CommandYear 2000 Issues Wject No. 6AS-OOW.03)




    * Enclosure omitted because it repeats comments that the U.S. Atlantic Command made.

                                                        28
Audit Team Members

The Acquisition Management Directorate, Office of the Assistant Inspector
General for Auditing, DOD, produced this report.

Thomas F. Gimble
Patricia A. Brannin
Mary Lu Ugone
Dianna J. Pearson
Scott S. Brittingham
Richard B. Vasquez
Jennifer L. Zucal
Michael T. Carlson
